No. 19-1099
IN THE

Supreme Court of the United States
_____________

CITY OF BAKERSFIELD, AARON STRINGER,
Petitioners,
v.

LESLIE LARAY CRAWFORD,
Respondent.
_____________
On Petition for Writ of Certiorari to
the United States Court of Appeals
for the Ninth Circuit
_____________
BRIEF IN OPPOSITION
_____________
EMILY KUWAHARA
Counsel of Record
CROWELL & MORING LLP
515 S. Flower Street, 41st Floor
Los Angeles, CA 90071
(213) 443-5556
ekuwahara@crowell.com
Counsel for Respondent
Leslie Laray Crawford
June 11, 2020

i
QUESTION PRESENTED
In determining whether a police officer used
reasonable force, may the testimony of a person with
knowledge of the characteristic behavior and
appearance of the victim, but not present on the
scene, be admitted solely to help the jury visualize
what was actually seen by the officer at the time of
the incident?

ii
RELATED PROCEEDINGS
Respondent
proceedings.

is

unaware

of

any

related

iii
CORPORATE DISCLOSURE STATEMENT
Respondent does not have any parent entities
and does not issue stock.

iv
TABLE OF CONTENTS
Page
QUESTION PRESENTED ......................................... i
RELATED PROCEEDINGS ...................................... ii
CORPORATE DISCLOSURE STATEMENT .......... iii
TABLE OF AUTHORITIES ...................................... v
INTRODUCTION ...................................................... 1
STATEMENT ............................................................. 3
A.

Relevant District Court Proceedings ................ 3

B.

Court of Appeals Proceedings ........................... 7

REASONS FOR DENYING THE PETITION........... 8
I.

THE QUESTION PRESENTED DOES
NOT MERIT REVIEW. ..................................... 8
A. This Case Presents an Evidentiary
Question That Was Decided In A
Manner Consistent With This Court’s
Precedents. .................................................. 9
B. The Ninth Circuit Did Not Address
The Applicable Standards For Officer
Encounters
With
Mentally
Ill
Individuals................................................. 13

II.

THE DECISION BELOW RESTS ON
ESTABLISHED PRINCIPLES AND WAS
CORRECTLY DECIDED. ............................... 14

CONCLUSION ......................................................... 16

v
TABLE OF AUTHORITIES
Page(s)
CASES
Colter v. Reyes,
No. 15-cv-3214 (ENV) (SMG), 2017
WL 2876308 (E.D.N.Y. July 5, 2017) ..................12
Drummond ex rel. Drummond v. City of
Anaheim,
343 F.3d 1052 (9th Cir. 2003)..............................10
Graham v. Connor,
490 U.S. 386 (1989) .................................... 9, 10, 12
Rascon v. Hardiman,
803 F.2d 269 (7th Cir. 1986)................................12
Ruvalcaba v. City of Los Angeles,
64 F.3d 1323 (9th Cir. 1995)................................10
Sherrod v. Berry,
856 F.2d 802 (7th Cir. 1988)................................12
Wallace v. Mulholland,
957 F.2d 333 (7th Cir. 1992)................................12
OTHER AUTHORITIES
42 U.S.C. § 1983 ..........................................................3
9th Cir. Model Civ. Jury Instr. 9.25 .........................11
Fed. R. Evid. 406 .......................................................11
Sup. Ct. R. 15 ..............................................................6

INTRODUCTION
The Ninth Circuit decided an evidentiary
question. It did so in a manner fully consistent with,
and mindful of, the rule that the reasonableness of
the police officer’s conduct must be judged solely
based on what the police officer actually knew and
observed on the scene, in light of his training and the
standards of conduct expected of him. Petitioners’
effort to characterize the decision below as an attack
on that rule is flatly inconsistent with the Court of
Appeals’ opinion. The Court of Appeals simply held
that under the circumstances of this case –
particularly in view of Petitioners’ own closing
arguments at trial – certain evidence concerning the
conduct and appearance of Michael Dozer, the man
shot and killed by the City of Bakersfield police
officer, would help inform the jury about what the
officer actually observed on the scene. In shooting
Mr. Dozer within a minute of arriving at the scene,
did the police officer see a dangerous and out-ofcontrol young man crazed by PCP, or someone who
was mentally ill?
The question that Petitioners tender – whether
“evidence of prior incidents which indicate that an
individual may be mentally ill could be introduced
for the purpose of determining whether an officer
used excessive force and/or was negligent even
though neither the officer nor his department had
any prior knowledge of such incidents” – is not
presented by this case, at least not in the sense that
the question suggests a departure from the
established substantive standards for judging police
officer conduct. The Court of Appeals acknowledged
that the conduct of the officer must be judged

2
exclusively based on what was observable on the
scene.
Petitioners’ own arguments to the jury reflected
the understanding that non-contemporaneous
evidence of Mr. Dozer’s condition and behavior, as
observed by others, could help the jury draw
appropriate conclusions about his appearance and
conduct at the scene. In other words, if Mr. Dozer
was mentally ill, and characteristically and
habitually behaved in a certain manner indicating
his condition, that would be relevant (but of course
not at all determinative) to how he appeared at the
scene of the incident.
In closing argument,
Petitioners themselves forcefully and repeatedly
injected the absence of non-contemporaneous
evidence of Mr. Dozer’s mental illness into the case:
“Have you heard any evidence from any psychologist,
psychiatrist, anyone that said Dozer had any mental
illness at all? You haven’t heard any evidence on
that. That’s just [the lawyer’s] speculation.” In light
of Petitioners’ own arguments to the jury, the Ninth
Circuit could hardly have reached any other
conclusion but that the trial court erred in
disallowing Respondent’s testimony addressed to
that subject.
Although Petitioners suggest that this case
involves the standards to be applied in judging the
conduct of a police officer confronting an individual
who may well be mentally ill, their question
presented does not address those issues. They do
not here challenge the fact that a police officer is
supposed to respond to an individual displaying
signs of mental illness in a manner that takes that
illness into account.

3
STATEMENT
Respondent, Leslie Crawford, brought this case
after her son, Michael Dozer, was shot and killed by
a City of Bakersfield police officer, Officer Aaron
Stringer. At the time of the shooting, Mr. Dozer was
behaving erratically, in a manner that was
characterized on the one hand as consistent with
someone on PCP, and on the other, as consistent
with someone with a mental illness. At trial, the
District Court excluded testimony from Ms.
Crawford about her observations of Mr. Dozer’s
erratic behavior on previous occasions, which was
here offered to help inform the jury about what
Officer Stringer witnessed when he encountered Mr.
Dozer. The Ninth Circuit overturned that decision
and found that Ms. Crawford’s testimony was
relevant to whether Mr. Dozer “would have appeared
to be mentally ill” to Officer Stringer – a concededly
relevant consideration.
A.

Relevant District Court Proceedings

On November 6, 2014, Ms. Crawford filed this
action against Petitioners in the United States
District Court for the Eastern District of California,
raising federal constitutional claims under 42 U.S.C.
§ 1983 and state law claims under California
negligence and battery law. A central issue in the
case was, of course, Mr. Dozer’s conduct and
appearance to the police officer on the scene. If he
was simply menacing and hostile, or on PCP, one set
of responses was likely called for; if he were
apparently mentally ill, another response would
have been appropriate.
There was limited
eyewitness testimony.

4
Before trial, Petitioners moved in limine to
exclude evidence of Mr. Dozer’s mental illness,
including testimony from Ms. Crawford about her
observations of Mr. Dozer’s behavior on prior
occasions. Pet. App. 41a. Ms. Crawford opposed the
motion, responding that such evidence would be
relevant because “his behavior on the afternoon in
question was consistent with behavior that properly
trained police officers would associate with some
form of a mental illness.” ER215.1
The District Court found that evidence of
mental illness was relevant – a point not challenged
in the Petition – stating that:
Unlike Decedent’s prior criminal history, which
would not be evident from the observations
made by Defendant Stringer in interacting with
Decedent, it was evident to Defendant Stringer
that Decedent was angry and acting in an
aggressive manner. Whether this was due to
being under the influence of a drug such as
PCP or because Decedent was suffering from
mental illness is relevant to determining
whether the force used in this instance was
reasonable.
Pet. App. 42a-43a.
While recognizing that non-contemporaneous
evidence concerning Mr. Dozer’s mental illness could
be relevant to the question of Mr. Dozer’s
appearance at the time of the incident, the District
Court nonetheless granted Petitioners’ motion with

Appellant’s Excerpts of Records in the Ninth Circuit Court of
Appeals filing.
1

5
respect to Ms. Crawford’s testimony because it was
that of a lay witness. Id. at 45a-46a. The trial judge
concluded that lay witness testimony could not be
presented unless it involved “her observations on the
date of the incident.” Id. at 45a.
The trial court did, of course, permit expert
testimony “regarding indicators of mental illness and
the training officers receive.” Id. A police practices
expert testified that Mr. Dozer’s behavior would
have led a reasonable officer to believe that Mr.
Dozer was “either mentally ill or experiencing a
mental crisis,” and he explained that officers are
trained to recognize “what mental illness looks like’”
and deal with a mentally ill person by “calm[ing]
them down” and “get[ting] them handcuffed, with
the least amount of force possible.” Id. at 9a-10a.
Petitioners’ expert witness similarly testified that
officers are trained to recognize signs of mental
illness and respond accordingly. Id. at 10a-11a.
Officer Stringer himself testified that he received
specific training about confronting an individual
believed to be mentally ill. ER053, 061-064. See also
Pet. App. 9a.
Despite being aware of the exclusion of
testimony about Mr. Dozer’s exhibited signs of
mental illness, Petitioners’ counsel argued in closing
that the jury should reach a verdict against Ms.
Crawford because she did not introduce evidence of
mental illness:
In this court of law, the Plaintiffs have the
burden of proof. They have to prove the case.
Have you heard any evidence from any
psychologist, psychiatrist, anyone that said Mr.
Dozer had any mental illness at all? You
haven’t heard any evidence on that. That’s just

6
[Plaintiff’s counsel’s] speculation. He wants
you to accept that Mr. Dozer was mentally ill
and that somehow means that he’s to be treated
differently. There’s been no evidence that he
was mentally ill, no evidence at all.
Id. at 14a. And further:
And, again, on this issue of mental illness, no
evidence of that at all. Zero. If this really was
a case about how we treated or responded to a
mentally ill person, you would have seen a
medical doctor, a psychiatrist, a psychologist
come in and tell you that they’ve either
diagnosed Mr. Dozer or that there was evidence
of that. You’re being asked to speculate on
that, and . . . when you’re asked to speculate,
the Plaintiffs aren’t carrying their burden by
proving their case by a preponderance of the
evidence.
Id. at 14a-15a.
On October 20, 2016, the jury returned a verdict
in favor of Petitioners, and the District Court
entered its judgment based on that verdict. ER003006; see also Pet. App. 15a.2
Petitioners’ brief omits some key facts about the interaction
between Mr. Dozer and Officer Springer. Pursuant to Supreme
Court Rule 15, Respondent addresses the key omissions here,
as they provide the background against which the relevance
and prejudicial impact of the excluded evidence must be
considered. See Sup. Ct. R. 15. Mr. Dozer was about five feet
five inches tall – shorter and lighter than Officer Stringer, who
was about five feet eleven inches and 170 pounds. ER119.
Officer Stringer testified that when he first approached Mr.
Dozer, he did not think that Mr. Dozer was actively committing
any crime while pacing around the area near the minimart.
(continued...)
2

7
B.

Court of Appeals Proceedings

Ms. Crawford appealed, specifically citing the
decision to exclude Ms. Crawford’s testimony. On
December 16, 2019, the Ninth Circuit held that the
District Court “abused its discretion” by excluding
Ms. Crawford’s testimony. Pet. App. 19a.
The Ninth Circuit found that Ms. Crawford’s
testimony should have been admitted because
whether Dozer was in fact mentally ill that day
is relevant to whether he would have appeared
to be mentally ill, and thus to whether Stringer
knew or should have known that Dozer was
mentally ill; after all, the existence of some
underlying fact tends to make it more likely
that a person knew or should have known that
fact.
Id. at 19a-20a. As to the District Court’s rationale
for excluding the evidence – because it was lay
testimony concerning a psychiatric condition – the
Ninth Circuit held that Ms. Crawford was competent
to testify to her own lay observations. Id. at 20a21a. The Ninth Circuit found that the exclusion of
Ms.
Crawford’s
testimony
was
prejudicial,
emphasizing that Petitioners had specifically argued
to the jury that they should infer that Mr. Dozer did
not appear mentally ill on the scene because no one
had testified about any mental illness on Mr. Dozer’s
________________________
(continued...)
Pet. App. 7a, ER81. Within one minute of Officer Stringer’s
arrival on the scene, Officer Stringer shot and killed Mr. Dozer.
Pet. App. 8a, ER77. As noted by the Ninth Circuit, the eye
witnesses provided varying accounts of the lead-up to the
shooting. Pet. App. 8a-9a.

8
part. Id. at 22a-24a. The Ninth Circuit ordered a
new trial consistent with its decision. Id. at 25a.
REASONS FOR DENYING THE PETITION
I.

THE QUESTION PRESENTED DOES NOT
MERIT REVIEW.

The evidentiary issue presented to, and decided
by, the Court of Appeals, was described in the
introduction to its opinion.
Crawford appeals, contending that the district
court abused its discretion in excluding as
irrelevant her testimony about her percipient
observations of Dozer’s past behavior, which
she offered to prove that Stringer should have
recognized that Dozer was exhibiting signs of
mental illness at the time of their encounter
and therefore that the shooting was
unreasonable.
Pet. App. 4a.
In holding that, in the circumstances of this
case, those observations were relevant to the
question of Mr. Dozer’s conduct as it appeared to the
police officer at that time, the Court of Appeals fully
understood this Court’s directions on how the
conduct of a police officer is to be judged, and applied
it to the evidentiary question in a manner consistent
with those standards. The Court of Appeals’ decision
is not in conflict with the decision of any other court,
including this Court, and presents no issue of
exceptional importance warranting this Court’s
review.

9
A.

This Case Presents an Evidentiary
Question That Was Decided In A
Manner Consistent With This Court’s
Precedents.

Petitioners premise their request for certiorari
on the argument that the Ninth Circuit departed
substantively from the principles set forth in
Graham v. Connor, 490 U.S. 386 (1989), but that
characterization of the Ninth Circuit’s opinion is
incorrect. The Ninth Circuit ruled on a specific
evidentiary question in light of the accepted
standards for judging a police officer’s conduct set
forth by this Court in Graham. It held that the
excluded testimony was relevant because it would
help the jury visualize the facts and circumstances
that Officer Stringer encountered at the time of the
shooting, specifically, whether Mr. Dozer “would
have appeared to be mentally ill” to Officer Stringer.
Pet. App. 19a. It was material because of the limited
testimony in the record on the point, and because
Petitioners themselves had purported to focus on the
absence
of
non-contemporaneous
evidence
supporting the assertion that Mr. Dozer was
mentally ill. Id. at 22a-24a. It further held that
while Ms. Crawford, as a lay witness, might not have
been able to offer a diagnosis of Mr. Dozer, she was
“competent to testify about her own observations of
and experiences with Dozer.” Id. at 21a.
In making the evidentiary determination that
Ms. Crawford’s testimony should have been admitted
at trial, the Ninth Circuit applied this Court’s
precedent. Petitioners’ assertion that the Ninth
Circuit
decided
the
appeal
in
“complete
contravention to the parameters that have been

10
defined by the likes of Graham v. Connor” simply
disregards the Ninth Circuit’s analysis.3 Pet. ii.
Graham establishes the substantive standard
for deciding Fourth Amendment excessive force
claims. The question is “whether the officers’ actions
are ‘objectively reasonable’ in light of the facts and
circumstances confronting them.” 490 U.S. at 397.
Various courts have set forth relevant standards to
consider in answering this question. And Petitioners
agree that “[t]hese factors all track the spirit and
intent of this Court’s holding in Graham v. Connor.”
Pet. 16. One such factor is “whether it should have
been apparent to the officer[s] that the person [he]
[she] [they] used force against was emotionally

Petitioners cite a number of cases to support the claim that
the Ninth Circuit has “long held that evidence an officer had no
knowledge of is not admissible in determining whether the use
of force was reasonable under the Fourth Amendment.” Pet.
17. Respondent agrees that the Ninth Circuit has consistently
applied the analysis required under Graham and has confined
its analyses in excessive force cases to the “facts and
circumstances” confronted by the officer at the time. However,
none of the cases that Petitioners reference are inconsistent
with the Ninth Circuit’s holding here. For instance, in
Drummond ex rel. Drummond v. City of Anaheim, 343 F.3d
1052 (9th Cir. 2003), where the victim of excessive police force
was “hallucinating and in an agitated state” at the time of the
encounter, the court said that “a detainee’s mental illness must
be reflected in any assessment of the government’s interest in
the use of force.” Id. at 1054, 1058. In Ruvalcaba v. City of Los
Angeles, 64 F.3d 1323 (9th Cir. 1995), which involved a struggle
between police officers and a vehicle passenger during a traffic
stop, the Ninth Circuit confirmed that the officers could testify
about facts known to them before the encounter regarding the
passenger’s criminal history, because those were relevant to
establish the “facts and circumstances” known to the officers at
the time. Id. at 1328.
3

11
disturbed.” Ninth Cir. Model Civil Jury Instr. 9.25
(emphasis added). See also Pet. ii, 15-16.
The Ninth Circuit applied this standard in
finding that Ms. Crawford’s excluded testimony was
relevant. Pet. App. 17a-19a. Specifically, the Ninth
Circuit considered whether the excluded testimony
was relevant to “the facts and circumstances” that
confronted Officer Stringer at the shooting, including
whether it “should have been apparent” to Officer
Stringer that Mr. Dozer was mentally disturbed. Id.
The Ninth Circuit found that the District Court
abused its discretion in excluding Ms. Crawford’s
testimony because the testimony was relevant “to
whether [Mr. Dozer] would have appeared to be
mentally ill, and thus to whether Stringer knew or
should have known that Dozer was mentally ill.” Id.
at 19a.
There is nothing novel in that view:
Evidence of Mr. Dozer’s characteristic behaviors
would provide some evidence of his conduct at the
time of the event in question. See Fed. R. Evid. 406.
Petitioners incorrectly suggest that the Ninth
Circuit’s decision allows the admission of evidence
“completely unknown” to a police officer and would
require courts to admit other facts that the officer
had “no knowledge of,” such as gang affiliation and
drug use. Pet. 3, 17-18. The Ninth Circuit’s decision
does nothing of the sort. The District Court and
Ninth Circuit each concluded that evidence of
mental illness was relevant for the very reason that
Officer Stringer knew that Mr. Dozer was acting
erratically, and was trained to recognize certain
behaviors as being a sign of mental illness.
Petitioners’ question does not challenge the basic
proposition that non-contemporaneous evidence of
characteristic behaviors can, on occasion, be

12
probative of behavior at the time of the event in
question.
Petitioners’ suggestions of a circuit conflict are
similarly ill-conceived. They are primarily premised
on the erroneous notion that the Ninth Circuit was
departing from the substantive principles set forth
in Graham. But, as shown above, there was no such
departure. Petitioners do not offer up any contrary
case from any circuit on the evidentiary issue that
the Ninth Circuit actually addressed and decided.4
And it is highly unlikely that there would be such a
case. It is difficult to imagine that any circuit would
adopt a rule that non-contemporaneous evidence of
habitual conduct can be admissible, except in an

Of the three cases that Petitioners mention in which other
courts have excluded evidence of mental illness, none suggest
that the individual was exhibiting signs of mental illness at the
time of the altercation. See Wallace v. Mulholland, 957 F.2d
333 (7th Cir. 1992); Rascon v. Hardiman, 803 F.2d 269 (7th
Cir. 1986); Colter v. Reyes, No. 15-cv-3214 (ENV) (SMG), 2017
WL 2876308 (E.D.N.Y. July 5, 2017). In Rascon, the court even
noted that it found the particular testimony at issue had little
probative value because “there was other substantial evidence
admitted with respect to [the victim’s] mental and emotional
health.” 803 F.2d at 278. In the last case that Petitioners
reference to allege a circuit split, Sherrod v. Berry, 856 F.2d
802 (7th Cir. 1988), the Seventh Circuit excluded evidence that
the decedent was unarmed at the time of the incident because
the officer never claimed that he saw a weapon, and therefore
the existence of a weapon was not relevant as to how the officer
responded. Id. at 805-07. The court clarified that such
evidence would have been “material and admissible” if the
officer had testified that he saw an object or weapon. Id. at
806-07. Here, Officer Stringer acknowledged Mr. Dozer’s
erratic behavior and testified that he thought it may have been
caused by PCP. Thus, the precise nature of the decedent’s
erratic behavior was very much at issue.
4

13
officer-involved excessive force case. And by their
nature, the circumstances under which such
evidence will be held admissible is highly factspecific. Here, the outcome was highly influenced,
for example, by the manner in which Petitioners
themselves argued to the jury in closing about the
ostensible absence of such evidence – which had
been excluded by the District Court ruling.
B.

The Ninth Circuit Did Not Address The
Applicable Standards For Officer
Encounters
With
Mentally
Ill
Individuals.

To try to lend significance to their Petition,
Petitioners observe that this Court has not
addressed whether a special standard of relevance
should be applied in excessive force cases involving
encounters with mentally ill individuals, which
Petitioners imply would lead to special standards for
police officer’s conduct when encountering mentally
ill individuals. See Pet. 23. But the Ninth Circuit
did not create any exceptions to existing precedent
relating to admissible evidence. Nor do Petitioners
present any question concerning standards for
encounters with mentally ill individuals, and the
intricacies of such standards were not examined by –
or at issue in – the Court of Appeals’ decision.
Indeed, witnesses introduced by both parties at trial
acknowledged that officers are trained to recognize
signs of mental illness and handle encounters with
mentally ill individuals with particular standards of
care. Pet. App. 9a-10a. The Ninth Circuit’s decision
was focused on the admissibility of lay witness
testimony, consistent with precedent, and the court
did not address the applicable standard of care for
encounters with mentally ill individuals.

14
II. THE DECISION BELOW RESTS ON
ESTABLISHED PRINCIPLES AND WAS
CORRECTLY DECIDED.
The Ninth Circuit was correct in finding that
the District Court should have allowed Ms. Crawford
to testify as to her observations of Mr. Dozer. Ms.
Crawford’s testimony was relevant to the extent that
it would have allowed the jury to understand what
Officer Stringer did in fact see in the moments before
the shooting. And the materiality of the error in
excluding the evidence was highlighted by the fact
that Petitioners themselves repeatedly referred in
closing to the absence of non-contemporaneous
evidence of Mr. Dozer’s mental illness as confirming
that he was not displaying signs of mental illness
when Officer Stringer encountered him.
That non-eyewitness evidence of conduct or
condition may, on occasion, be relevant and material
in connection with determining conduct or condition
at a particular time is easy to illustrate from law
school examples. One can imagine a situation in
which the officer and witnesses testify at trial as to
the voice of the shooting victim and substantially
vary in their accounts of the voice. When faced with
this range of evidence, the jury could benefit from
lay witness testimony from someone who had seen
and heard the victim numerous times and could
testify about his voice, even if this witness was not
present at the shooting.
Or, there may be a dispute in a case about
whether the shooting victim was brandishing a gun.
The police officer claims the shooting victim had a
gun. A witness says he saw no gun and plaintiff
argues at trial that the officer “planted” the gun. It
would undoubtedly be relevant and admissible if

15
numerous lay witnesses were able to testify that the
victim always carried a gun and habitually pulled
out the gun when feeling threatened.
Thus, there is no dispute that such evidence can
be relevant. There is certainly little basis for some
special rule that such evidence, concededly relevant
in many circumstances, must be excluded in a case
involving a claim of excessive force.
Here, Officer Stringer and eyewitnesses
provided varying accounts as to how Mr. Dozer was
acting in the moments directly preceding the
shooting, although all witnesses acknowledged that
he was acting strangely or erratically. The jury,
which was not at the scene of the shooting, would
have been better able to judge the conduct and
circumstances that Officer Stringer faced if it had
heard Ms. Crawford’s testimony about Mr. Dozer’s
customary conduct.
Thus, the testimony was relevant.
It was
certainly material to the issues in dispute – in large
measure because of Petitioners’ own arguments to
the jury emphasizing the point. It was competent
because the testimony was to be limited to Ms.
Crawford’s own observations. And while it is clear
that the testimony would only be admissible for a
limited purpose, both the trial court and the appeals
court understood that limited purpose – and were
clearly in a position to properly instruct the jury
concerning the limited purpose for which those
observations could be admitted.

16
CONCLUSION
The petition for a writ of certiorari should be
denied.
EMILY KUWAHARA
Counsel of Record
CROWELL & MORING LLP
515 S. Flower Street, 41st Floor
Los Angeles, CA 90071
(213) 443-5556
ekuwahara@crowell.com
Counsel for Respondent
Leslie Laray Crawford

